<html>
<title> - Sea Rescues: Saving Refugees and Migrants on the Mediterranean</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



115 Congress                                                                          Printed for the use of the
1st Session                                                      Commission on Security and Cooperation in Europe
                                                          



                          
    Sea Rescues: Saving Refugees and Migrants on the Mediterranean 
    
    
    
    

                   



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]









                                    DECEMBER 12, 2017                                     
                                    
                                    
                                    
                                    
                  
                                   Briefing of the
               Commission on Security and Cooperation in Europe
__________________________________________________________________________________________
                                    Washington: 2018                                                











            Commission on Security and Cooperation in Europe
                   234 Ford House Office Building
                       Washington, DC 20515
                        202-225-1901
                      <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e685958583a68b878f8ac88e89939583c8818990">[email&#160;protected]</a>
                      http://www.csce.gov
                      @HelsinkiComm
                     
                    
                   Legislative Branch Commissioners

              HOUSE                                     SENATE
CHRISTOPHER H. SMITH, New Jersey              ROGER WICKER, Mississippi,
          Co-Chairman                          Chairman
ALCEE L. HASTINGS, Florida                   BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama                  JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas                    CORY GARDNER, Colorado
STEVE COHEN, Tennessee                       MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina               JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois                     THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas                    TOM UDALL, New Mexico
GWEN MOORE, Wisconsin                        SHELDON WHITEHOUSE, Rhode Island
                        
          
          
                      Executive Branch Commissioners
          
          
                       DEPARTMENT OF STATE
	               DEPARTMENT OF DEFENSE
                       DEPARTMENT OF COMMERCE
                       
                              (II)
          
          
          
ABOUT THE ORGANIZATION FOR SECURITY AND COOPERATION IN EUROPE


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe (OSCE). The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


ABOUT THE COMMISSION ON SECURITY AND COOPERATION IN EUROPE

    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.

                              (III)


                Sea Rescues: Saving Refugees and

                 Migrants on the Mediterranean
                           __________

                      December 12, 2017


                                                                                     Page
                              PARTICIPANTS

Nathaniel Hurd, Policy Advisor, Commission for Security and Cooperation in Europe ......1

Catherine Flumiani, Minister Counselor, Embassy of Italy to the United States ..........3

Michalis Stamatis, First Secretary and Consul, Embassy of Greece to the United States ..5

Ludwig Blaurock, Political and Military Counselor, European Union 
Delegation to the United States ........................................................7

Laura Thompson, Deputy Director General, International Organization for Migration ..... 10
John Murray, Marine Director, International Chamber of Shipping ........................13 
(via videoconference)


                                  (IV)
                                     
                                     


 
                 Sea Rescues: Saving Refugees and
                  Migrants on the Mediterranean
                              ----------                              

                           December 12, 2017
                           
                           
             Commission on Security and Cooperation in Europe
                           Washington, DC                        
                           




    The briefing was held at 2:41 p.m. in Room 188, Russell Senate 
Office Building, Washington, DC, Nathaniel Hurd, Policy Advisor, 
Commission for Security and Cooperation in Europe, presiding.
    Panelists present: Nathaniel Hurd, Policy Advisor, Commission for 
Security and Cooperation in Europe; Catherine Flumiani, Minister 
Counselor, Embassy of Italy to the United States; Michalis Stamatis, 
First Secretary and Consul, Embassy of Greece to the United States; 
Ludwig Blaurock, Political and Military Counselor, European Union 
Delegation to the United States; Laura Thompson, Deputy Director 
General, International Organization for Migration; and John Murray, 
Marine Director, International Chamber of Shipping (via 
videoconference).

    Mr. Hurd. Good afternoon. On behalf of the chairman of the Helsinki 
Commission, Senator Roger Wicker, and the co-chairman, Congressman 
Chris Smith, welcome to this briefing on ``Sea Rescues: Saving Refugees 
and Migrants on the Mediterranean.'' My name is Nathaniel Hurd, and I'm 
a policy advisor at the Helsinki Commission.
    Since the refugee and migrants crisis started in Europe in 2015, 
there have been many stories about suffering, death, and debates about 
policy. Almost 12,000 of these people on the move have died or gone 
missing on the Mediterranean. Many of the debates within and between 
European countries and institutions remain unresolved. But there is 
another story that must be told more often and more clearly. It is the 
story of lives saved on the sea.
    Our panelists today include representatives from the governments of 
Italy and Greece, and from the shipping industry. Together, they 
represent ship crews that have rescued more than 379,000 refugees and 
migrants. That is almost half the population of Washington, D.C., in 
which we are holding this briefing.
    Too often, we focus on the villains. Today we will focus on the 
heroes. Like all heroes, they are imperfect because they are human. We 
will discuss struggles, challenges, mistakes, critiques, and 
recommendations for improvement. But we also commend those who have 
rescued strangers, sometimes at the risk of their own lives.
    Before I introduce the panelists, just a few brief words about the 
format of this briefing. After introducing all the panelists one by 
one, I will ask each one of them a series of questions. They'll hold 
their answers until I've completed asking my questions of all the 
panelists. They will then answer. Then we'll open up the discussion to 
those of you in the audience and those of you that are watching online. 
Just a reminder to our Facebook viewers, you can post a question, and 
one of my colleagues will ask it on your behalf into the microphone.
    Now to our panel. Catherine Flumiani is the Minister Counselor for 
consular and social affairs at the Embassy of Italy to the United 
States. She arrived in Washington, D.C. in August of 2016. Ms. Flumiani 
is a native of Varese in Italy, and graduated from the Universita 
Cattolica del Sacro Cuore di Milano with a degree of political science. 
Her areas of expertise include the Middle East and North Africa, the 
United Nations, and transatlantic relations. In 1997, she took her 
first overseas diplomatic post in Amman, Jordan. Later, Ms. Flumiani 
was posted to the Italian embassy in Berlin, and in Brussels to the 
Italian Permanent Mission to the North Atlantic Council of NATO. Her 
latest assignment at the Ministry of Foreign Affairs and International 
Cooperation in Rome was as head of the United Nations Office. Welcome.
    Michalis Stamatis is the First Secretary and Consul of the Embassy 
of Greece to the United States. Mr. Stamatis is a career diplomat, and 
joined the embassy in 2016. Prior to Washington, D.C. he also served as 
consul at the Consulate General of Greece in Ukraine, and as deputy 
head of mission and consul at the Embassy of Greece in Abu Dhabi. His 
previous postings at the Greek Ministry of Foreign Affairs in Athens 
also include the Office of the Spokesperson of the ministry, the 
Diplomatic Cabinet of the minister, and the Directorate of EU 
Integration and Economic and Monetary Union. Mr. Stamatis studied 
political science and political administration at the National 
University of Athens. He continued with a Master's degree in 
international studies at the same university, while working at the 
Greek think tank EKEM, the Hellenic Centre for European Studies. He 
speaks Greek, English, and French. Mr. Stamatis has served as reserve 
officer in the 2nd Parachutist Battalion in Athens, and is now ranked 
as a reserve lieutenant of the Hellenic Army. Welcome.
    Ludwig Blaurock, to my left, is the counselor for political and 
military affairs in the Political, Security, and Development Section at 
the Delegation of the European Union to the United States. Mr. Blaurock 
joined the EU Delegation to the U.S. in September 2015, after serving 
in various positions in the German foreign service. Most recently, he 
was consul at the German Embassy in Tel Aviv, where he led the 
consulate, and additionally was responsible for human rights and other 
issues in the Israeli-Palestinian context.
    From 2009 to mid-2012, Mr. Blaurock was political counselor in the 
Federal Chancellery in Germany, in Berlin, where he was assigned to the 
Security Policy and Disarmament Division that also included relations 
with the United States and Western European countries. From 2008 to 
2009, he served as desk officer at the NATO and Security Division of 
the German Federal Foreign Office, where he was responsible for NATO 
enlargement and partnerships. Prior to joining the German Foreign 
Service, Mr. Blaurock worked as a management consultant at McKinsey and 
served his military service in the German Air Force. A native of Bonn 
in Germany, he completed his legal studies at the Universities of 
Mannheim, Sevilla, and Passau. As a McCloy Fellow, he earned a Master's 
in public policy from Harvard University's Kennedy School of 
Government. Welcome.
    Laura Thompson is the deputy director general of the International 
Organization for Migration, more often known as IOM. She is responsible 
for assisting the director general in administering and managing the 
organization; conducing political dialogue; and building IOM 
relationships with governments, U.N. agencies, civil society, and the 
private sector, as well as defining policies, strategies, and 
prioritizing action. Prior to this position, Ms. Thompson was the 
ambassador and permanent representative of Costa Rica to the U.N. and 
other international organizations in Geneva. She also served at the 
Permanent Mission to the U.N. in Geneva in a prior occasion, and at the 
Delegation to UNESCO. In addition to her diplomatic experience, 
Ambassador Thompson has held posts as a legal officer in two U.N. 
organizations. Ambassador Thompson obtained a Master's degree in 
international relations with a specialization in international law from 
the Graduate Institute for International Studies of Geneva, and holds a 
degree in law from the University of Costa Rica. She has also completed 
executive education at the John F. Kennedy School of Government at 
Harvard University and INSEAD. In addition to Spanish, which is her 
mother tongue, Ambassador Thompson is fluent in English, French, and 
Greek, and has a basic knowledge of Italian and Portuguese.
    Before introducing our final speaker, who is John Murray, the 
marine director of the International Chamber of Shipping [ICS], just a 
quick story of how Mr. Murray came to be on this panel. In December of 
2015, I was in Rome for meetings. I met with a priest, Father Bruno 
Ciceri, who has been very involved in migration and in particular 
mariner issues for many decades, and it was he who told me that at the 
time the merchant shipping industry had rescued about as many people as 
some of the national navies. Now, that has since shifted as the navies 
have scaled up, but it was then that I first learned of the critical 
role that the merchant shipping industry has played in the response to 
this crisis.
    As I noted, John Murray is the marine director of the International 
Chamber of Shipping. A master mariner, he joined ICS following previous 
careers at sea, including on oil and chemical tankers, and as a 
maritime college lecturer. Mr. Murray is responsible for the output of 
ICS on marine technical matters. The principal role of ICS is to 
represent the views of ship owners worldwide, including at the 
International Maritime Organization and in other international bodies. 
Mr. Murray has led ICS involvement in a number of initiatives, and is 
responsible for several of the industry best practice guidelines that 
ICS produces, either independently or in association with others. He 
led development of the industry-supported guidance ``Large Scale Rescue 
Operations at Sea,'' which is widely acknowledged, in conjunction with 
other ICS-led publications, as the principal industry guidance on the 
approach to be taken and practical operational advice regarding large-
scale rescue operations. Mr. Murray represents ICS at the EU Shared 
Awareness and Deconfliction in the Mediterranean--also known as SHADE 
MED--meetings, and has represented the ICS and industry position in 
numerous meetings, principally at IMO but also in other fora.
    A very distinguished panel.
    Minister Counselor, please.
    Ms. Flumiani. Thank you, Nathaniel. I am particularly glad to 
participate in today's briefing organized by the U.S. Helsinki 
Commission on a topic in which Italy is at the forefront: to save human 
lives in the Mediterranean. Addressing the migration crisis in the 
region is a priority for the Italian Government, which spares no effort 
to foster cooperation and synergies with its European partners and all 
international actors involved.
    In such context, we are glad that migration flows are prominently 
moving up the agenda of the Organization for Security and Cooperation 
in Europe, as Italy will chair the organization in 2018. It will 
therefore not come as a surprise that migration and the prevention and 
repression of illegal trafficking of human beings will be among the 
priorities of the 2018 Italian Presidency of the OSCE starting January 
1st. This year's Mediterranean OSCE Conference, which took place in 
Palermo in October, already had as its focus the migration and refugee 
crisis in the Mediterranean. Although OSCE does not have any coast 
guard or naval operational goal, Italy's aim is to ensure that the wide 
array of OSCE programs in the different areas--political, security, 
economic--can fully contribute to addressing the root causes and 
consequences of migration flows through the Mediterranean.
    2017 has been a turning point in terms of number of migrants and 
refugees reaching Italy. From January to November, over 117,000 persons 
arrived, a decrease of 36 percent compared to the same period in 2016. 
Though 90 percent of the totality came through Libya, the share of 
arrival via that country has steadily dropped in the last months, while 
illegal smugglers are increasingly exploring alternative routes.
    Italian authorities cooperate closely with the relevant Libyan 
authorities, and particularly with the Libyan Coast Guard from the 
Ministry of Defense, to enhance their capacities in a vast array of 
operations: patrolling, search-and-rescue [SAR] operations at sea, 
managing of immigration flows in maritime and terrestrial borders. As 
Italy is one of the few countries with an operating embassy in Tripoli, 
we work closely with the Libyan Presidency Council and the Government 
of National Accord to help strengthen national institutions and 
encourage the gradual assumption of responsibility on the most 
pressing, challenging issues, such as managing the migration phenomenon 
and the fight against human trafficking.
    Italy works to help reaffirm the principles of sovereignty, 
independence, territorial integrity, and national unity of Libya, as 
well as noninterference in domestic affairs. At Libya's behest, we also 
work to strengthen the institutional apparatus dedicated to fight 
criminal networks, both along the coast and in the south. At the same 
time, we give new importance to social aspects and development, and the 
full respect of human rights.
    Our bilateral engagement nestles within the broader European 
dimension. In particular, training activities for the Libyan Coast 
Guard personnel has been carried out in coordination with the EU naval 
operation EUNAVFOR MED Sophia, under the command of an Italian officer, 
Admiral Enrico Credendino, and the EU Border Assistance Mission in 
Libya, EUBAM, as our capacity building is complementary to them. 
Moreover, the training we deliver has been aimed, and still indeed is 
aimed, at returning some patrol vessels to legitimate Libyan 
authorities, and ensuring that Libyans can make the best use of the 
device at their disposal for search-and-rescue operations at sea.
    Italy's continuing to do its share in patrolling and rescue 
operations. In 2017, from January 1st to November 30, the Italian units 
conducted 1,400 search-and-rescue events related to migration, 
intercepting 1,240 units, both at sea and ashore. In total, 112,000 
migrants were rescued while trying to reach Italian shores. Thirty-two 
percent were rescued by Italian naval units belonging to the Italian 
Coast Guard, the navy, the Guardia di Finanza--which is our financial 
police--and the Carabinieri. Merchant ships also participated in such 
efforts, and have rescued over 11,000 people, almost 10 percent of 
total rescues this year. The Italian Navy also participates to EUNAVFOR 
MED Sophia, currently with one frigate and one helicopter.
    In conducting such operations, Italy strictly abides by the 
obligation of the law of the sea, including as provided by the 
International Convention of Safety of Life at Sea, London 1974; the 
International Convention on Maritime Search and Rescue, Hamburg 1979; 
and the United Nations Convention on the Law of the Sea, Montego Bay 
1982; all of which require commanding officers of ships at sea and 
state to, I quote, ``render assistance to any person found at sea in 
danger of being lost,'' end of quote.
    The Italian Coast Guard is one of the Italian Navy corps, and 
performs mainly civilian tasks, including utilizing to the safety of 
navigation and search-and-rescue operations. In this regard, Italy 
ratified the International Maritime Organization [IMO] Search and 
Rescue Convention of Hamburg 1979. Accordingly, the Italian Coast Guard 
General Command was appointed as national authority in charge of 
coordinating sea rescue services.
    Alerts from migrants in distress are received in various ways: 
incoming telephone calls from boats using a satellite mobile phone, or 
incoming calls from a person ashore in Africa or Europe reporting the 
presence of a unit in distress and its possible position, or reports by 
another unit in the area. Coast Guard naval units are generally 
equipped with paramedic personnel able to carry out the first medical 
screening of the rescued people. If a person needs urgent medical 
attention, a MEDEVAC is arranged to take him or her to the nearest 
medical structure able to respond to the emergency.
    Rescued people undergo a first solo interview aimed at gathering 
their main data--name, age, nationality--as well as clues to the actual 
condition of the trafficking victim: clear evidence of torture, young 
females without family, children, youngsters of both genders without 
family. People considered to be at risk undergo a second and deeper 
solo interview aimed at confirming the above, or if necessary gathering 
more data. The result of the interviews are transmitted to the police 
authorities ashore before arrival in port.
    People rescued during a SAR operation coordinated by the Italian 
Coast Guard are disembarked in a place of safety, as defined by the IMO 
Safety of Life at Sea and SAR Convention, and by the Guidelines on the 
Treatment of Persons Rescued at Sea issued by the IMO in 1978. If the 
place of safety is on Italian territory, the decision is taken in 
accordance with the evaluation of the competent branch of the Ministry 
of Interior in charge of managing migrants after disembarkation at the 
end of SAR operation.
    Thank you very much, and I am ready for your questions.
    Mr. Stamatis. Thank you, Nathaniel, and the Helsinki Commission, 
for organizing this briefing. I think it's important to raise awareness 
for this important issue.
    Greece, situated at the external borders of the EU and the Schengen 
area, has found itself at the frontline of an unprecedented migrant and 
refugee crisis. Migratory flows have been increasing exponentially 
since 2012, and the situation became even more critical in 2015. On 
that year, as you can see on map number one, the number of refugees and 
migrants in Greece exceed 800,000 people, which was a twentyfold 
increase compared to 2014. Overall, about 1 million people--almost 10 
percent of Greece's population--transited through Greece in 2015 and 
2016, mainly coming from Syria, Iraq, and Afghanistan, and heading 
mainly towards the countries of Northern Europe.
    Due to the closure of the Balkan route on February 2016, more than 
62,000 people are now stranded in Greece. At the same time, arrivals 
seem to be picking up again, with a considerable increase of 40 percent 
over the last six months despite the implementation of the EU-Turkey 
statement. Therefore, the problem continues to exist, creating extreme 
pressure on the islands of the eastern Aegean and the five Registration 
and Identification Centers, or hotspots as we say, operating there, in 
most cases beyond their capacity.
    Now, as you can see on map number two, geography is crucial to 
understand the difficulties in managing the migrant or refugee flows in 
this part of Europe. Greece's borders with Turkey are mainly at the 
sea, and this complicates every effort to control the flows. Fences 
cannot be built on maritime borders, while according to international 
law, ``refoulement''--also known as ``pushback''--is prohibited. At the 
same time, there is an obligation by international law to rescue people 
in distress at sea.
    In reality, smugglers rely heavily on the provisions of 
international law and search-and-rescue operations, turning them into a 
distinct tactical advantage. These dangerous crossings on unseaworthy 
and overloaded vessels have the main purpose of being detected and then 
rescued.
    In their efforts to reach the Greek coastline, passengers sometimes 
deliberately sink their boats upon sight of a Hellenic Coast Guard 
patrol vessel in order to force its crewmembers to recover them and 
bring them ashore. This practice endangers the lives of all persons 
onboard, even the Hellenic Coast Guard's officers, as they must recover 
a large number of people in literally no time and often in adverse 
weather condition prevailing at sea.
    Geographic proximity is another facilitating factor for illegal 
crossings. The distance from the Turkish shores to the Greek islands on 
the eastern Aegean Sea can be as close as five miles, and can be 
crossed in just a few minutes. Just to give you an idea of it, this is 
the exact distance between Staten Island and Lower Manhattan. When the 
Hellenic Coast Guard detect suspicious movements inside the Turkish 
territorial waters, it immediately transmits early warning information 
to the Turkish Coast Guard authorities to assume control and rescue 
responsibility in their area of jurisdiction. In practice, however, 
once refugees and migrants have set sail from the Turkish shores, it is 
almost certain that they will manage to enter Europe.
    Another crucial element is that the number of daily sea crossings 
fluctuates significantly throughout the year. Even when the situation 
seems to be under control, it can always change rapidly and 
drastically. Continuous vigilance is needed, placing additional strain 
to the search-and-rescue resources.
    The Hellenic Coast Guard has to operate under extremely dense time 
frames and adverse conditions. In order to address the migratory 
pressure, the Hellenic Coast Guard has redeployed its resources, 
engaging a larger number of its operational means on the region. 
Operations are coordinated by the Joint Rescue Coordination Center, 
based in Piraeus. This is the single national operations center for the 
coordination of such incidents within the Hellenic Search and Rescue 
Region, which is the ATHINAI FIR. Upon detection, the Hellenic Coast 
Guard immediately renders assistance on a nondiscriminatory basis, in 
accordance with national and international maritime law, such as the 
United Nations Convention on the Law of the Sea, and in the spirit, of 
course, of the century-old Greek seamanship tradition.
    One of the core objectives of the search-and-rescue operations of 
the Hellenic Coast Guard is to save lives at sea. Since 2015, the 
Hellenic Coast Guard has rescued more than 200,000 people in more than 
5,000 incidents in the eastern Aegean Sea alone. After the EU-Turkey 
statement of March 2016, the number of incidents has been considerably 
reduced. Nevertheless, the Coast Guard still continues facing 
disproportionate migratory flows in the eastern Aegean. In 2017 only, 
approximately 30,000 people were rescued in more than 500 incidents. 
The number of dead and missing persons at the Aegean Sea exceeded 1,000 
in the year between March 2015 and March 2016, but has been dropped 
significantly, to 129 people, since then.
    Breaking the business model of smugglers and traffickers is also a 
high priority for the Hellenic Coast Guard. Over the last few years, 
the Coast Guard has carried out extended operations, resulting to the 
arrest of a significant number of traffickers, in total 3,600 for the 
period between 2015 and 2017.
    It is important to understand, as you can also see on map number 
three in front of you, that in order to effectively perform these 
tasks, the Coast Guard must maintain increased surveillance activities 
along an extended line of Europe's southeastern external maritime 
borders. In this regard, additional assets and personnel are deployed 
on a rotating basis, while measures are also taken to increase the 
search-and-rescue capabilities in terms of human resources and 
operational assets. Undoubtedly, though, this situation has put immense 
strain on the human resources of the Hellenic Coast Guard and has 
stretched the operational fleet to its limits.
    Other players contributing to these efforts are the Hellenic Armed 
Forces, the NATO activity at the north of the island of Lesvos, the 
United Nations High Commissioner for the Refugees [UNHCR], the 
International Maritime Organization, the Europol, and of course the EU 
Border and Coast Guard. The Joint EU Operation Poseidon has provided 
additional assistance in terms of human resources, operational assets, 
as well as technical equipment from the participating member states, 
under the coordination of FRONTEX.
    Turkey is undoubtedly another key player. It should be acknowledged 
that Turkey has made great efforts to manage the flows, while hosting a 
large number of refugees itself. It is, however, imperative to step up 
its cooperation in the fight against smugglers and increase its efforts 
to control the flows, with the ultimate goal of bringing them to a 
halt.
    If there is one lesson deriving from the experience so far for the 
refugee crisis, on how to deal with it, it is that no country or 
organization alone can deal with such a reality. The only way forward 
is through cooperation and coordination among various countries and 
organizations and institutions in the spirit of solidarity and burden-
sharing, and with the understanding that this is a global issue that 
requires a global solution. If we fail to acknowledge this, we are 
basically doing nothing more than ignoring the realities on the ground, 
while choosing to disregard the magnitude and the complexity of the 
refugees and migrant crisis itself.
    Thank you.
    Mr. Blaurock. Thank you very much. Thank you to the Helsinki 
Commission for hosting us and inviting us today to this important 
topic. Thanks to the colleagues.
    As we've heard, the migration challenge that we've faced in Europe 
over the past couple of years has really been unprecedented, and we're 
quite proud of the efforts that we've been doing together with our 
member states to confront this challenge.
    At the center of that effort has always been to honor our values 
and our commitments under international law to save lives and to 
provide dignified treatment to human beings that are at peril and at 
risk. In the Mediterranean, the European Union efforts, together with 
our member states and other international partners, have allowed the 
rescue of more than 230,000 people in 2016 alone, and over 70,000 in 
2017. However, we need to be clear that this effort is much wider and 
more comprehensive, and that we cannot only look at the Mediterranean 
alone.
    In Libya and Niger, high numbers of people are stranded, and the 
European Union is trying to assist together with such organizations as 
UNHCR and IOM to return voluntarily these people to their countries of 
origin. So far this year we are counting about 12,000 of these returns, 
and we're trying to double that number in the months to come.
    In a January partnership effort with other countries--mainly host 
countries, countries of origin, and countries of transit--we've 
developed a partnership framework to work with these countries to 
really fight the root causes of migration, because that's where the 
effort has to be focused on. But it's also in the Mediterranean to save 
lives and to fight the business model of human smugglers and human 
traffickers.
    When it comes to the root causes, I just would like to recall, and 
without going into too much detail, that the European Union, together 
with its member states, is the main donor and provider of humanitarian 
and development assistance worldwide--in fact, the biggest worldwide. 
Out of the Valletta Summit in December 2015, only of that effort, since 
then about 2 billion euros have been provided in projects to transit 
and host countries, and countries of origin, to fight that, and another 
4 billion have been made available by the European Commission in the 
External Investment Plan. We hope to leverage that sum by tenfold until 
2020 by further partner investments and private-sector investments.
    As I said, the fight has to be comprehensive and looking at the 
whole picture, not only in the Mediterranean. So, along the transit 
routes and the countries of origin, the European Union has been 
strongly engaged. We have a strong and comprehensive effort through the 
Sahel, which is one of our key focus areas. Niger is one of the key 
countries there, where we have a civilian mission supporting Nigerian 
capacity building, the European Conference on Antennas and Propagation 
[EUCAP] Sahel, with an important element in Agadez, which is one of the 
main transit points to cross through the very perilous crossings 
through the Sahel desert.
    We're engaged as European Union, together with member states, in 
Mali with a civilian mission that parallels EUCAP Sahel in Niger, which 
is EUCAP Sahel in Mali. We have a European military training mission to 
capacitate the Malian armed forces to stabilize the country.
    I could keep enunciating and listing other efforts that we have 
just to give an idea that it is really a comprehensive effort of what 
we need to do and the long-lasting effort that we need to be engaged 
in.
    More precisely, on the topic that we are dealing here today--and it 
was mentioned before by my colleagues from Italy and Greece--the 
European Union has a couple of important operations in the 
Mediterranean to face the migratory pressure and save lives at sea. I 
will not repeat the numbers that have been cited and the migratory 
picture that we see. Although in 2017 the trend seems to be lowering, 
we're still at extraordinary levels of flows into Europe.
    The Central Mediterranean route coming out of Libya is the main 
transit route. This year we've seen about 117,000 people crossing from 
Libya into Italy, basically. In that area, we have the European Naval 
Mission EUNAVFOR MED Sophia that is operating in international waters 
outside and off the coast of Libya since 2015. It is a mission that is 
not primarily designed to save lives at sea, although in practice 
that's one of the main tasks that they fulfill. The main mission of 
that operation is to disrupt the business model of human smuggling and 
human trafficking. It has additional tasks that have been very 
prominent, very important, mainly training the Libyan national Coast 
Guard to provide support.
    In that capacity, we are quite content to see that some first 
efforts have been made. We have trained about 200 Libyan Coast Guard 
members. They have been on ships and started to patrol their own 
territorial waters, which are indeed the most dangerous waters because 
that's where most people actually died in the crossing. They're on 
patrol boats that have been provided, vitally, for that purpose, so 
it's a hand-in-hand effort here. We're proud to say that they have 
actually rescued 18,000 people this year only, from basically nothing 
in the years before.
    Other parts of the mission of EUNAVFOR Sophia also to help 
implement the United Nations Security Council weapons embargo against 
Libya, and to gather and collect data on illegal export of oil from 
Libya. So it's a kind of comprehensive mission that EUNAVFOR Sophia is 
engaged on, and we've seen some efforts and some success in what 
they've been doing. But clearly, it's an effort that needs to be 
sustained for a longer period.
    Regionally, behind that, we have the efforts that the European 
Union is stepping up to support our member states, Italy and Greece, 
mainly through the European Coast Guard and Border Agency, or FRONTEX 
as it's better known. Two missions are there, two important national 
authorities. One in Italy is Triton, and one in Greece which is 
Poseidon. Both of them supporting member states, national authorities, 
and working under their authority to support those navies and coast 
guards, saving lives but also doing other important work such as cross-
border crime, and other coast guard activities such as looking at 
illegal fishing and pollution of maritime waters in a comprehensive 
manner as well.
    To give you some data points on those, currently for Operation 
Triton in Italy, there's about 300 European officials supporting 
Italian authorities with seven vessels and aircraft, two helicopters, 
and mobile offices. The main effort is at sea, but also some land-based 
support. To give you some data points, they have been participating in 
2017 only, from February to November, participating in helping saving 
21,000 people out of the seas. They seized 25 tons of drugs, detected 
seven incidents of pollution, arrested 253 suspected smugglers, and 
seized about a million illegally smuggled cigarettes.
    For the operation that FRONTEX is supporting in Greece, which is 
called Poseidon, in this year alone or at this current state there is 
about 800 guest officers that are working under FRONTEX to support the 
Greek national authorities. They have been participating in saving more 
than 11,000 people in the Aegean. In terms of the assets deployed, 
there's 13 vessels, two helicopters, and 60 patrol cars, with about 800 
personnel that have been participating in seizing 5.5 tons of drugs, 
arresting more than 290 smugglers or suspected smugglers, seizing 42 
million cigarettes illegally passing, and falsified documents. So 
really a comprehensive mission.
    Also to mention, and that's the third route after the Central 
Mediterranean route, which is the main transit route that we've been 
seeing, the Eastern Med route, we should not forget there's also the 
Western Mediterranean route--people crossing over into Spain and the 
Spanish enclaves--or exclaves on the African continent, where FRONTEX 
also has support missions to the Spanish national authorities with the 
names at sea for Hera, Indalo, and Minerva. Those have been operating 
also for several years. Currently, about a hundred FRONTEX officers are 
supporting that.
    To give you some data points on that, for only the period of May 
until end of November--so, fairly short period--they've arrested about 
100 suspected smugglers, seized 68.5 tons of drugs--so a very high 
number of drugs, because the Western Mediterranean route has also 
traditionally been sort of a high drug-trafficking route as well--
detected four illegal fishing incidents, and equally seized a high 
number of illegal cigarettes and other tobacco products, about 60 
million pieces alone.
    It is a comprehensive security effort, but in the core of it is 
really saving lives at sea. We will not see that decrease, really, 
although we have sort of a positive tendency, unless we keep working on 
transit routes, on the root causes, on countries of origin, because 
that's really where the effort has to lie. We are very proud--as I said 
earlier, very proud of the efforts of the officers and marine men and 
women who are working at sea, saving lives. It's something we can be 
proud of. But we need to be conscious that this has a palliating effect 
on what's happening. It's really addressing the symptoms, but not the 
root causes. It's a fight that we need to keep working together and 
jointly. As my Greek colleague said earlier, it is something that we 
need to do in full solidarity and in full vision of the complexity of 
the task as a global challenge that we all face, and not something to 
be left to individual member states that are the most effected by the 
state of geography.
    Thank you.
    Mr. Hurd. Thank you.
    Ambassador Thompson.
    Amb. Thompson. Thank you very much for inviting us to participate 
in this. The colleagues before have made my life a little bit easier 
because you have provided already a lot of the information that I was 
also going to provide.
    I would like to start by saying that, indeed, the movements in the 
Mediterranean continue to be extremely important, but are much less 
than it was before. I think that's an important element. We have 
accounted for 163,979 arrivals in Europe by sea during 2017, as of 26 
November. Certainly, Italy remains to be the main entry point at this 
point, somewhere around 116[,000] migrants. Greece second has gone down 
and it comes up again. Interesting, Spain is going up substantially. 
Cyprus, also, in the last year has become a little bit more important.
    So we are about 30 percent less than the year before, in 
comparison. However, the number of dead remain quite important, and 
we're talking about 3,033 that we have accounted for. So we realize 
that there is a clear pattern that exists, that is the percentage in 
the Central Mediterranean, basically; that is, the percentage of dead 
remains the same, despite the differences in the numbers in the last 
two years. It has stabilized at approximately 2.4 [percent] of the 
total of arrivals, and this is the amount of people that we find and 
that we count and that the newspapers and the different entities know 
about. So, obviously, these numbers might be much bigger, but we don't 
learn.
    We continue to promote the idea of and the premise of the most 
immediate action by all stakeholders that are around and that should 
help to reduce the loss of lives as much as possible in these mixed 
flows of migrants--economic migrants, asylum-seekers, people that are 
searching for different reasons to come to Europe--and, obviously, 
regardless of their status.
    We have been very happy with a lot of the actions that have been 
taken, and the colleagues before just mentioned different operations 
that are taking place in the Mediterranean. I think the real heroes 
there are the different coast guards of the different countries, 
including Turkey as you mentioned, because they have done also very 
important work.
    The other countries in the south of the Mediterranean have also 
taken actions, and they are not as prominent as the one arriving. The 
coast guard in Libya have made also a big effort in trying to enhance 
their own capacity, but at the same time I think we all have made a big 
effort to enhance their capacity by equipping them better, but also 
training them in a way that they do better rescue operations, but also 
more humane ways of dealing with people immediately after.
    NGOs have been an extremely important element in complex 
operations, I would say, but they have rescued a lot of people and 
provided a lot of the support to the vulnerable cases.
    Certainly, the commercial vessels have played a very important 
role. I know that it's not an easy task, particularly in the 
Mediterranean--it's a very busy route all the time, but they have 
played a very important role. I have some figures here, but I will 
leave the gentleman that is in the screen to provide that to you 
because I think he's going probably to focus on that. We know, also, 
that for commercial vessels, it is a little bit more difficult because 
of the economic cost they have, the fact that they are not equipped in 
order to do it, and certainly their reliability that they not 
necessarily are always ready to assist. But they have been a very 
important actor in this process.
    We still consider that mainstream human rights and protecting 
vulnerable migrants at all the stages of these search-and-rescue 
operations is extremely important, regardless of the legal status of 
the migrants and/or the conditions that have brought them. It's 
certainly an obligation of all governments, and I think that the 
majority of the efforts that have been done through these years have 
that as a very important basis.
    Post-embarkation and reception assistance is one of the most 
difficult part, and I think is where we find certainly a lot of 
problems in Libya. We are at a point in Libya where we--and when I say 
we, I'm talking about the common efforts that the European Union, IOM, 
and other institutions also have done in order to build their capacity 
with this in a certain way contradiction--that we save people or they 
save people at the sea, and then bring them back to the shore and put 
them very often in detention centers that have terrible conditions, and 
where people can even die at land instead of having died at sea. So 
there are some contradictions in the whole effort, but I think we are 
very clear that this needs to continue, and what we need to do is to 
try to enhance the capacity of Libyan authorities to deal with the 
people at land as well as other countries are trying to do. Certainly, 
it's one of the issues that remains, I would say, one of the present 
important challenges.
    What we see as very important in this post-embarkation, or 
disembarkation, and reception assistance is basically to have an 
approach that is rights based, but also vulnerability sensitive. We 
know perfectly well that there are a lot of different vulnerabilities 
among the people that are in those boats. We have children. We have 
victims of trafficking, victims of torture, people with specific needs 
or protection needs or specific vulnerabilities. It's certainly not 
easy to create a system that addresses all those things. Mainstreaming 
human rights into those strategies and operations must be, obviously, 
foreseen by everybody. The cooperation between countries of origin, 
transit, and destination are extremely important and not always 
present. So that's another element.
    Capacity building, coordination, and partnerships continue to be a 
large part of our focus there, not only with the member states and with 
Libya. We are doing this work with UNHCR. As I said, the Libyan Coast 
Guard plays a very important role in this. Basically, we try to work 
also with NGOs to build their own capacity as well.
    Just to conclude, I think there are two elements. The colleague 
from the European Union mentioned this. It is, by doing all this, we 
are dealing with the consequences. We have to be very clear that, 
despite the fact that we are putting a lot of efforts--and each one of 
the actors in this table and others that are not represented here have 
made big efforts, invested a lot of capacity, resources, and people and 
time in doing this--we are still only dealing with the consequences, 
and not totally successfully dealing with them. So, basically, we have 
to remember that a large number of the people that are crossing the 
Mediterranean today are crossing because of the instability in Libya.
    Libya used to be one of the major destination countries for migrant 
workers, and still a lot of the people that cross the Mediterranean, 
according to what we have found, they cross the Mediterranean after 
spending some time in Libya and not being able to find the jobs that 
they thought that they were going to find and the possibility that they 
thought that they were going to achieve. So stability in Libya is a key 
factor in trying to respond to a lot of this.
    A lot of the efforts that we are doing with the support of the 
European Union, and different member states of the European Union, are 
to try to work on preventing irregular immigration in the Sahel region. 
We are hoping that this is going to provide some results in the mid-
term and long run.
    As long as the situation in Syria continues to be the same, Greece 
will continue to be at risk of another flow. We need to continue 
investing in trying to support the governments that are around Syria 
because they are the ones that are keeping or having the biggest burden 
into all this.
    So I think there are two main questions that we need to reflect 
upon, to conclude. First of all, how can we enhance comprehensive 
regional or state-led responses to rescue? That is a big question. How 
we can strengthen the NGO support to SAR operations to ensure that the 
NGOs can deliver their lifesaving services, but in full accordance with 
international, EU, and applicable national laws?
    These two questions are linked to our short- and long-term 
ambitions with regard to eliminating this perilous Mediterranean 
crossing. That is, in the short run, how can we create safe and secure 
maritime space grounded in a rights-based approach and strong, multi-
stakeholder cooperation SAR operations?
    In the long run, it is clear for us that the most effective way to 
reduce this is to set up regular and safe avenues for immigration. 
Therefore, which regular avenues can be made available to workers at 
all skill levels, students, family members, entrepreneurs? Which kind 
of transparent, time-bound, and effective migration policies need to be 
in place? Because there continue to be a lot of irregular immigration 
because there are still jobs that exist, for which people don't have 
regular ways to get there. We need not only to optimize the status-
determination procedures, but also to really design pathways that allow 
European societies to make the most of migrant contributions to their 
own welfare.
    Thank you.
    Mr. Hurd. Thank you, Ambassador Thompson.
    Director Murray, thank you again for joining us long distance and 
late at night. Please.
    Mr. Murray. Thank you very much. Good afternoon to you.
    Particularly at sea, we live in a world defined by regulation, 
convention, and codes. Notwithstanding formalized regulation, it's long 
been a tradition with shipping and seafarers that every effort is made 
to rescue anyone who is distress at sea. This mutual self-help 
principle has been in place for centuries, and underpins the 
humanitarian approach of seafarers to their fellow man.
    The natural humanity of seafarers to provide assistance has, 
however, been formalized in two maritime conventions: firstly, the 
United Nations Convention on the Law of the Sea, or UNCLOS; and also, 
the International Convention for the Safety of Life at Sea. So both of 
these instruments require that the master of a ship which is in a 
position to do so, on receiving information from any source that people 
are in distress at sea, responds to obligations that include proceeding 
promptly to assistance, and to offer assistance regardless of the 
nationality or status of such persons, or the circumstances in which 
they are found. It may be noted from these rules that the ship 
rendering assistance does so without consideration of race, color, or 
other characteristics of the people in distress. Furthermore, onboard, 
other than the most basic checks on immediate health of welfare 
considerations, no assessment of those rescued should take place or be 
asked for by any authority. Assessment or categorization of people 
rescued may only proceed when rescued personnel have been disembarked 
to a place of safety.
    During the first half of 2016, the IOM recorded over 205,000 
migrants reaching Europe via the Mediterranean, with over 2,500 
recorded deaths. Up to June of this year, a far smaller number crossed 
the Med, yet the number of recorded deaths was over 1,600. It's clear, 
therefore, that throughout 2017, migration across the Mediterranean has 
continued to be a tragic reality.
    The number of people actually rescued by merchant ships over the 
past few years: in 2015, over 16,000; 2016, nearly 14,000; and in 2017, 
to the middle of November, 11,000. The actual percentage of those 
rescued by merchant ships is slowly increasing, which is perhaps a 
story of concern.
    Rescue has been carried out by most types of internationally 
trading ships, including tankers--oil, chemical, and even gas--as well 
as by container ships and bulk carriers. On all of these ships types, 
there are matters of particular concern with safety concerns on tankers 
particularly being paramount. However, issues on container ships and 
bulk carriers are also significant, and the design and construction of 
many ships frequently render them not suitable to both conduct large-
scale rescues and support large numbers of rescued people.
    This unsuitable nature has several aspects, such as: the recovery 
from water facilities is generic and not intended for large-scale 
rescue operations; many ships have a high freeboard, which is the 
distance from the waterline to the deck; many ships have little 
maneuverability and a lack of safe space of survivors; also, there will 
be a lack of resources--food, medical, and accommodation; the ship's 
personnel are sufficient to operate a ship, but it's not specified 
specifically trained to handle a large number of survivors; safety 
concerns, rescued person may be exposed to risks or may themselves pose 
a risk for the safety of the ship. One of the concerns of the industry 
is the ongoing psychological burden on ordinary seafarers who may be 
called upon to carry out rescues, and so experience the trauma that 
comes with that process.
    Ships associated with the offshore exploration industry also have 
participated in rescuing distressed people, as have passenger ships, 
which are also bound by the same moral code and legal responsibilities 
that apply to all ships. In this case, however, coordinators generally 
do not call on passenger ships unless other alternatives are not 
available.
    Some ships will operate perhaps with less than 20 crew members, 
while others will have a requirement for considerably more. In general 
available accommodation will be limited to reflect the compliment 
required by the flag State's manning certificate. Also consequently, 
there is usually very limited additional accommodation or other 
facilities available for use by rescued personnel, who may frequently 
significantly outnumber the ship's own compliment. The difference in 
numbers between the ship's crew and the rescued personnel can lead to 
security concerns.
    ICS has produced guidelines for large-scale rescue operations at 
sea, copies of which, I understand, are available in your room today, 
and may also be freely downloaded from the ICS website. The guidelines 
are widely supported by the industry, and have been particularly 
welcomed by those administrations significantly involved with migration 
across the Mediterranean. If anybody wants later to ask any questions 
in detail about these guidelines, I can answer those as a separate 
point.
    The commitments on ships to carry out rescue at sea place a 
corresponding obligation on administrations to arrange the prompt 
disembarkation of those rescued to a place of safety. No matter how 
well intentioned the ship is, it is not considered to be a place of 
safety, which, as we've already heard this evening, is defined itself 
in international law. Such law also can preclude a ship from returning 
those rescued to a place where they believe them to be in danger. It 
might also be noted that a very real danger can exist for a ship's 
master and crew dealing with overwhelming numbers of rescued persons if 
the ship is ordered to return to a port where they do not want to go.
    Fortunately, the authorities in the Mediterranean have acted in an 
exemplary manner. Italy in particular is to be applauded for its 
commitment to disembarking rescued people in a place of safety where 
medical and other support services can work alongside those who 
categorize disembarking persons.
    It's important to recognize that merchant ships do not rescue 
migrants, refugees, smugglers, or traffickers. When called upon, ships 
rescue people who are in distress and transport them to a place of 
safety. Ships should not be asked or expected to categorize rescued 
people, and cannot do this other than in the most rudimentary way 
consistent with the limited capacity on these ships. This process will 
seek to keep family groups together but separate obviously vulnerable 
individuals, including women and children, from inappropriate contact 
where this can be achieved.
    In the event that individuals are identified as posing a current 
threat to the ship, its master and crew, this will be communicated to 
outside agencies, with guidance and assistance being sought wherever 
possible. On disembarkation, any possessions that have given rise to 
concern will be handed to the authorities. Once again, whenever 
possible the owner of property that is giving cause for concern will be 
identified.
    The industry, and ICS in particular, has both instigated and 
participated in a range of activities and interaction with governments 
and international agencies. These engagements include at the U.N., IOM, 
UNHCR, and various NGOs involved in rescue operations, as well as 
governments of countries affected by the migration crisis. ICS 
participates in a variety of processes coordinated particularly by the 
EU and Operation Sophia, which utilizes various resources, including 
military assets, in support of its broader protection remit.
    ICS also participates in the SHADE MED process, an interagency 
coordinated under Operation Sophia that you already heard about, 
coordinating also the efforts of the Allied Maritime Command, MARCOM, 
which separately operates Operation Sea Guardian in the Mediterranean. 
The Shade Med process seeks to de-conflict different operations in the 
Mediterranean, has developed proposals and an outline mechanism to both 
gather useful information from the industry, and in turn provide 
relevant information to shipping when and where this is required. 
Providing the prompt disembarkation of rescued people, there is 
frequently little outside assistance that the ship will require, and 
will always do so when the transfer of survivors to a more suitable 
vessel or other assistance may be seen to be appropriate following 
contact with the relevant authorities.
    My final point deals with the fact that there is a cost associated 
with carrying out rescue, financial cost, and that is considerable. It 
affects part of the industry disproportionately. However, the shipping 
industry has resisted the suggestion that it should be compensated for 
participating in rescue operations. To do so would risk 
institutionalizing or formalizing the role of ships and the shipping 
industry in a matter that does remain the responsibility of 
governments.
    Thank you for now.
    Mr. Hurd. Thank you.
    I'll ask a series of questions. Again, if you could just wait to 
answer until I've asked the questions of all the speakers.
    I'll start with Minister Counselor Flumiani. You mentioned the 
collaboration and cooperation between the Italian authorities and the 
Libyan Coast Guard. I'm wondering, in the view of the Italian 
Government, what are the current strengths and weaknesses of the Libyan 
Coast Guard, as it stands right now? Secondly, how is Italy monitoring 
the compliance of the Libyan Coast Guard with international human 
rights law and humanitarian law, specifically as it regards to sea 
rescue? So that's one basket of questions.
    Another issue that has been somewhat contentious has been the NGO 
code of conduct. I'll give a little bit of background on that, and then 
ask a series of questions.
    Our colleagues from IOM have reported that of the 117,000 refugees 
and migrants rescued on the Mediterranean so far in 2017, ships from 
nongovernmental organizations, or NGOs, have rescued about 38 percent 
of them, a fairly large percentage. In early August of this year, the 
Italian Government issued a code of conduct for these NGOs that are 
conducting sea rescues. Some of the NGOs agreed to it and others 
rejected it. Since the code of conduct was instituted, there has 
reportedly been a significant decrease in the number of NGO boat 
patrols in the Central Mediterranean. At the same time, the number of 
refugee and migrant boats arriving in Italy has also reportedly 
increased, from about 4,000 in August to 6,000 in September.
    So just two basic questions. In the view of the Italian Government, 
what was missing from international maritime law that made the code of 
conduct for NGOs necessary? What precipitated it? The second question 
is: Did the Italian Government consider extending the code of conduct 
to commercial ships, fishermen, or other vessels in the--in the Central 
Mediterranean?
    Two other very quick baskets of questions, the first focusing on 
human trafficking. Are Italian Coast Guard, naval, and other official 
personnel who participate in the kind of search-and-rescue operations 
we've been discussing trained to detect human smugglers and traffickers 
aboard ships? In the event that they actually suspect that someone 
aboard one of these ships is a human smuggler or trafficker, what are 
they supposed to do? What is the protocol?
    The last questions have to do with the commercial shipping 
industry. What is the Italian Government's evaluation of its engagement 
and cooperation with the shipping industry, specifically on search and 
rescues? Are there ways in which you think this can and should be 
strengthened?
    On to my Greek colleague, starting with the area of human smuggling 
and trafficking, a similar line of questions. Are Hellenic Coast Guard 
personnel trained to detect human smugglers and traffickers aboard 
ships?
    You noted that more than 3,600 human smugglers and traffickers have 
been arrested by the Hellenic Coast Guard since 2015. What's happened 
to them? Where are they? Have they been prosecuted? What's the status 
of the prosecutions?
    Then, also, you made, I think, a very critical point that sometimes 
passengers on boats will intentionally sink boats in order to prompt 
rescue. When this has been done by people who are engaged in criminal 
activity, like human smugglers or traffickers, are there additional 
legal penalties for the intentional sinking of boats? Because, of 
course, the sinking of a boat endangers the lives of everybody aboard.
    Shifting to your neighbor, I was very struck by your words about 
the cooperation between Turkey and Greece, especially against a long 
history of frequent conflict and challenge. That was very striking. I'm 
wondering, are there ways in which the Greek-Turkish cooperation on 
detection, search and rescues, and flows of boats can be strengthened?
    On the shipping industry, shipping has been at the heart of Greece 
since antiquity. The Greek shipping industry is one of the foremost in 
the world, and you even have a ministry dedicated specifically to 
shipping. What is your government's evaluation of its engagement and 
cooperation with the shipping industry, specifically regarding search 
and rescues in the Mediterranean? Are there ways that this engagement 
and cooperation should be strengthened?
    Shifting to my EU colleague--yes--Italy and Greece have obviously 
borne an incredibly heavy load as frontline states. The vast majority 
of refugees and migrants have arrived on their shores. So I wonder, to 
what extent are the EU and its member states discussing the possibility 
of having boats carrying refugees and migrants disembark at other EU 
ports to help lessen the burden on frontline countries, particularly 
Italy and Greece? What would be needed in order to make this happen? 
Have any member states--specific member states--you can name them if 
you want; if you can't, understood--but have any member states shown a 
willingness to open their ports?
    On the topic of restrictions on inflatable boats, in July the EU 
foreign ministers approved restrictions on the supply of inflatable 
boats and outboard motors to Libya. What effect has this had on refugee 
and migrant flows from Libya? Have the kind of vessels refugees and 
migrants are using changed? What's been the humanitarian impact? Other 
than destroying the boats themselves, have the EU and its member states 
considered pursuing legal action against companies responsible for 
exporting these boats?
    To piggyback on your comments about EU engagement with the Libyan 
Coast Guard, similar line of questions. What are the current strengths 
and weaknesses of the Libyan Coast Guard? How is the EU monitoring 
their compliance with international human rights and humanitarian law?
    On the topic of human smuggling and trafficking, when suspected 
human smugglers and traffickers are detected and arrested during the 
conduct of an EU operation, what's done with them? Similarly, where do 
they go? Criminal prosecution? Et cetera.
    Ambassador Thompson, in October your colleague who's with us here 
today, Chief of Mission Dall'Oglio, made a brief reference to the 
resources and training available to navies, coast guards, et cetera to 
conduct these kind of search-and-rescue operations. In the view of IOM, 
are the national and multinational search-and-rescue operations 
adequately trained and resourced? If not, what can and should be done 
to ensure they are adequately trained and resourced?
    Secondly, what is IOM's assessment of the Italian code of conduct 
for NGOs involved in sea rescues that I alluded to earlier? Does IOM 
have any recommendations related to this code of conduct?
    You also alluded to Libya. Same question: In the view of IOM, what 
are the strengths and weaknesses of the Libyan Coast Guard? What are 
they doing to ensure compliance with international human rights and 
humanitarian law related to sea rescues?
    Institutionally, does IOM have recommendations on how national, 
multinational, and commercial entities participating in sea rescues can 
improve their response, specifically to human smuggling and human 
trafficking?
    Finally, Director Murray, I'm going to start with a scenario and 
ask two questions related to that, and then move on to several other 
sets of questions. Suppose a merchant ship has rescued refugees and 
migrants at sea. Human smugglers, traffickers, and perhaps other 
criminals are among the rescued. They fear the refugees and migrants 
will reveal their identity, and are willing to threaten, attack, and 
even kill refugees and migrants to prevent this identification. In a 
scenario like that, what is the protocol for the master and crew of the 
merchant ship if they conclude these individuals are an immediate 
threat to the refugees and the migrants? You spoke earlier about 
measures they're supposed to take if there's a perceived threat to the 
crew of the ship, but I'm wondering if there's a perception of threat 
to the refugees and migrants themselves. At what point and how do 
merchant ships communicate to the relevant authorities that there may 
be human smugglers, traffickers, or other criminals aboard a rescue 
ship?
    Moving on to just an assessment of the performance of merchant 
ships, I think it's unquestionable that merchant ships have responded 
in quite an extraordinary way. But, as IOM and others have noted, 
merchant ships do not always respond positively when called on to 
collaborate in rescue operations. They've also noted that commercial 
vessels are often not equipped--and I think you alluded to this as 
well--often not equipped for search-and-rescue operations. What are 
reasons a merchant ship might not adequately respond to a call to 
participate in a search-and-rescue operation?
    Another line of questions. It is inevitable that merchant ships 
will continue to be called on to rescue people in distress and 
transport them to a place of safety. The shipping industry has resisted 
compensation for doing so, as you've noted. What kind of support can 
and should governments and multinational entities like the European 
Union provide to the shipping industry to strengthen their search-and-
rescue operations of merchant ships--that is, support that does not 
drift into the realm of compensation?
    Before, during, and after search-and-rescue operations, how would 
you evaluate the engagement and cooperation between the shipping 
industry and frontline states like Italy and Greece, and entities like 
the EU? Finally, how can this engagement and cooperation be 
strengthened?
    We'll start with Minister Counselor Flumiani.
    Ms. Flumiani. Thank you, Nathaniel, for this very extensive round 
of questions. [Laughs.] I will try to do my best, and some of them I 
will group because they are quite similar.
    So, as I mentioned, supporting the Libyan institutions and their 
capacity building is our priority. We have been working very hard on 
this for quite a long time now, and this is key in order to enable the 
Libyan authorities to handle what is happening in their country and in 
their area of responsibilities at sea.
    What we are doing is, both bilaterally and with the EU, is 
upgrading their technical training, their technical ability to handle 
search and rescue, to handle patrolling at sea. We are training the 
personnel. In this training, human rights respect component is 
included, because this is important. They are people at sea. They have 
not been doing this a long time. So when we train them, we include this 
kind of element, which is essential, in our view. Of course, how can 
you do your work if you don't have the necessary assets? We are helping 
with the repairing basically and the keeping running their naval units. 
We will do more in the next months to come.
    You mentioned also the code of conduct for the NGOs. This was, 
indeed, a very important piece of work which was done by our ministry 
of interior, together with the colleagues of the EU and the Commission 
especially, in order to give a framework of agreed procedure to NGOs, 
which are not subject to the Italian law, because they are 
international NGOs. As merchant ships, for instance, which are Italian 
flagged, they are subject to the law and to the international 
convention, which Italy has adhered to. So it is covered, if I could 
say. But different is the situation of international NGOs, which were 
operating at the time--sometimes I understand also within the Libyan 
maritime borders. So this was a big issue of discussion. You will have 
seen a lot of debate on the media concerning their intervention.
    So we agreed with them, and actually a large number of them, to 
have a set of agreed rules. The agreed rules, I will just point to a 
couple of them which are important, are all in the frame of the 
conventions I mentioned before. But the first rule is that they will 
not operate in the Libyan international waters, thank you. Also, that 
in case that the Italian authorities, they would want to inspect or go 
on board, they would be able to do so. I want to say something about 
the coordination that our Maritime Center of Coordination is doing with 
all the operations. So they would also agree to have a very constant 
communication with our coordination center, and to inform whether they 
have a sense that there is some illicit trafficking or maybe smugglers 
on board of their ship.
    So better communication, clear procedures, and the result is that 
the code of conduct was accepted by a large number of them. Actually, 
it coincided, their acceptance, with the diminishing of the flow from 
Libya. So our data is that in the summer, the flow of arrivals from 
Libya started to decrease and so, also, the burden on NGOs as well. I 
want to--just to conclude my short answer by saying that our personnel 
on board of our naval units--especially the coast guard--they are very 
sensitive about the need to establish whether they are victims of human 
trafficking and persons responsible of such traffics. That this is why 
there is this system of interview, and the second interview, really to 
identify persons at risk and criminals on board before reaching the 
port of disembarkation. So that the authorities at the port of 
disembarkation can be informed and they can act accordingly.
    Mr. Hurd. Just on the engagement, and cooperation with the shipping 
industry, I'm wondering the view of the Italian Government. How has 
that been going?
    Ms. Flumiani. Yes. My knowledge is, as I mentioned, that they are 
playing a very important role, but that they are part of our daily 
coordination to our Maritime Coordination Center.
    Mr. Stamatis. Thank you, Nathaniel. So, a couple of hard questions 
from you. Let's start with the first one, which is the traffickers and 
how the whole procedure goes with them. I've been speaking with offices 
from the maritime ministry in Athens. They were actually explaining to 
me what the procedure is. It's quite easy, actually, for them to 
understand who the trafficker is on the boat, because it's usually the 
one who is driving the boat. It's usually a guy who is quite separated 
from the rest, refugees and migrants. It's easy to distinct them. 
That's why I actually want to say.
    As soon as they rescue the whole people from the boat, which is on 
sea, they take them on shore. The trafficker is immediately arrested 
and then prosecuted. There is a minimum penalty of 10 years in jail. So 
this is how it proceeds. In cases also that there is a more specific 
danger for the life of people on the boat--for example, in adverse 
weather conditions or when they sink the boat or when they are trying 
to do maneuvers and they avoid the coast guard patrol vessels, this 
punishment of 10 years in jail can be actually increased even more, 
because of the danger they are putting on other people's lives.
    But it's important, I think, to say that apart from arresting the 
smugglers and the traffickers, we are also putting a lot of effort in 
trying to prevent the consequences of the victims of human trafficking. 
So what we are doing now in Greece and the islands mainly, of the 
Eastern Aegean, is that we're trying to create a network where other 
officers will participate, specialists for the labor market and so on. 
So when they see a case that's suspicious of being a victim of 
trafficking, they immediately report it to that center so action is 
being taken for the protection of the victims. So I would say that 
there's quite a lot of job being done in that specific area.
    On the second question, about the Turkey and Greece cooperation and 
the coast guard's cooperation in practical terms, I would say that 
actually this was one of the main challenges, especially at the 
beginning of the crisis in 2015. We all know that Turkey has sometimes 
publicly contested the search and rescue area of its country. So this 
has created some tensions. The situation has been much better, 
actually, after the NATO involvement, the NATO activity on the north of 
Lesvos, which is actually facilitating through surveillance and 
information sharing with both coast guards. It's also getting better 
after the EU-Turkey statement, because it actually has made it more 
important for us to cooperate.
    In general terms, though, the cooperation is going very well, in 
practical terms. There is an exchange of information of people who are 
crossing the borders. There is also a regular exchange of visit between 
the commandants of the two coast guards. There is also actually now an 
everyday communication. Each side is trying to communicate data and 
information and then--on crossings and so on. We just try to share more 
information and try to upgrade our cooperation on that field. Recently, 
also Greece has hosted an attache at the embassy of Greece in Ankara, 
which is actually specialized for this cooperation between the two 
coast guards.
    Steps are also being taken in this regard in order to facilitate 
the cooperation between the two coast guards. There are confidence-
building measures, and these things are going really well. I would like 
to say, though, that there is what I call the comparison trap. We tend 
to compare the reality today with what was happening in 2015. But 2015 
was an exceptional year, when the flows was extremely high, at their 
peak almost 800,000 people. When we measure our progress with that year 
it's always a big progress. So it's obvious that 97 percent of flows 
have been--is the reduction, actually. But if we compare the flows to 
previous years, like 2014, for example, it's still higher.
    So I would say that there is room for improvement of the 
cooperation. This is especially in terms of preventing the boats and 
the vessels from crossing the borders. As I said, the distance is very, 
very small. It's five miles in most cases. It means very short notice. 
But I think that a lot of things could be done from the Turkish side in 
order to prevent the boats from getting too long of their distance, of 
their shores, actually, and entering the Greek search and rescue area.
    On the third question, about the shipping industry in Greece, 
actually the Greek seamanship tradition is very well known. So 
cooperation with Greek ships that actually are operating in the area of 
the Aegean is really important. The prompt assistance that is provided 
by these ships is an essential part, actually, of the coast guard, the 
search and rescue operations. There is a constant exchange of 
information in this regard. The global merchant shipping has proved to 
be instrumental too for this operation. Merchant ships have, indeed, in 
numerous cases performed either detection or recovery. So the whole 
sense of this cooperation between the Greek merchant industry and the 
Hellenic Maritime Ministry is that it's actually an excellent 
cooperation and they really try and to help a lot.
    Mr. Hurd. Thank you.
    Councilman Blaurock.
    Mr. Blaurock. OK, thank you very much. I'll try to take the 
questions in the order you posed them.
    The first question, I believe, was about the disembarkation of 
rescued individuals to other countries of the European Union, other 
than Italy or Greece. I think, first, we need to distinguish between 
the types of operations that we have, because for those operations that 
FRONTEX is sponsoring and facilitating, those are actually happening 
under the authority and supporting of the national authorities of our 
member states. If they are acting under the authority of Italy or 
Greece inside their territorial waters, or inside their search and 
rescue areas, it's automatic and legally there's no question where 
those people rescued should be disembarked upon. A different question 
is for Operation Sophia, because it's operating in international 
waters. So there, that discussion has come up.
    Another two points. Maybe one is that when the Operation Sophia was 
launched, Italy was graciously offering to take upon itself the 
responsibility to disembark people that the operation would rescue, but 
also those that the operation would pick up as suspected smugglers. 
That has been sort of incorporated in the mandate of the mission since 
its inception. There has been some discussion about burden sharing in 
that sense, in terms of where to disembark people. But I think there's 
a couple of factors that have not pushed that discussion very much 
forward. They have as much to do with practicality as with legal 
issues. The practicality is just geography, the distance. The distance 
of a ship that would pick up refugees or migrants on the central 
Mediterranean route to divert it to other shores would just make it a 
much longer journey, taking the ship away from the operation, lag time 
coming back.
    So these are issues to be thinking of. The other question, of 
course, is reception capacity of member states, of--[inaudible]--that 
there's the destination. More importantly, or also importantly, is the 
legal question--not so much for the migrants and refugees, but the 
question about what to do with those that are suspected of smuggling. 
There is a question of legal finish here, because not all European 
Union member states actually have in their criminal codes a provision 
to prosecute somebody who is a smugger in international waters. Italy 
has that provision in its statutes. Most other member states don't. So 
you wouldn't have any legal basis to prosecute a smuggler.
    Of course, then, diverting flows and sort of saying, Well, we're 
taking the bulk of the people to a different shore, but the one or two 
people who we suspect to be the smuggler we'll divert to somewhere 
else, is creating complexities that in that type of operation, I think, 
we're not looking forward to. But, of course, overall the question of 
burden sharing is a political discussion that's ongoing within the 
European Union. As you know, the Commission has tabled sort of an 
overhaul encompassing proposal about overhauling the European asylum 
system as a whole, where the question of sharing the burden and 
voluntary quarters or not-so-voluntary quarters is a key question one. 
But that's a question for dealing with the refugees once they're on 
shore, not so much from the maritime parts.
    To the question of the restrictions, that in July 2017 the Council 
issued for member states to be allowed to prohibit the sale, supply, or 
whatever facilitation of basically rubber boats and small outboard 
motors. I have to disappoint you that I don't have any sort of data 
points to say how effective that has been. Although, I should I say a 
couple of things about what the environment of that is, and why there 
was a belief that that is necessary.
    Overall, and that's mainly talking to the effects of Operation 
Sophia, but also about other coast guards and navies operations on the 
central Mediterranean route, the types of boat that have been used has 
changed over time. We've seen initially the boats were much bigger, 
were wooden fisher boats, much larger capacity per sort of transit. 
Those boats have basically been disappearing from the waters. Just 
simply in effect because one part was that boats that have been 
intercepted have been disposed of. Operation Sophia has disposed over 
500 boats over the time of this period. So just the supply of those 
boats, they were just a scare commodity.
    So it has shifted very much to smaller rubber dinghies, initially 
those that could locally be sourced. Then we saw the operation has 
detected that there's some flow from smaller boats being sourced from 
the eastern and western shores outside of Libya, coming through there. 
They also detected that some of the boats appeared to have been 
fabricated outside the area basically for the purpose of transporting 
smuggling, because those rubber dinghies, fairly large in size--so, for 
high capacities of people, but not very seaworthy, not very study. 
Those were not boats that were designed to be put on anything else than 
for that specific purpose.
    So there was a necessity to have a legal tool to prohibit that, or 
at least to have European member states being able to prevent that if 
those products came through their countries of transit, and to have 
that possibility. We hope that there's a deterrent effect on that. 
Otherwise, as I say, we don't have any data points to say that now that 
it's--we should recall, the decision was only made five months ago, to 
really see if that had an additional effect on things.
    On your third question, about the Libyan Coast Guard, I think we 
need to be realistic about where the Libyan Coast Guard--and we're 
talking mainly about the coast guard that is a military coast guard, 
and the then there's a civilian coast guard as well, they are sort of 
different institutes--the military coast guard, which is the one Sophia 
is dealing with in training, which has been the most capable, in 
relative terms, out of Libya have basically nothing. There was no 
operations room, there were no patrol vessels, there were no crews. So 
we started from basically a clean slate, restarting to build it up.
    Compared to that, it is actually a success story--a very modest 
one, we agree--but it is a success story. There's about 200 officers 
trained. There's a couple of rows of patrols going out. The main needs 
really are technical equipment--such easy things as radar equipment, 
communications equipment for the ops center room that sits in Tripoli 
to communicate with patrol boats out at sea, the patrol boats by 
themselves, and simply training for the crews so that they have more 
capacity on sea.
    We're into that effort. The European Union is doing that. We're 
pursing more training capabilities. But it is a sort of a slow process 
ongoing. We've had support from member state, mainly Italy, providing 
some patrol boats. There's a list of equipment requested. Finally, the 
military, the Libyan national coast guard, has provided the European 
Union to ask for equipment, and specific equipment, what they need. 
We're looking into that, what we can provide. Hopefully that will 
develop. They will be strong.
    I recall the coast guard has had some effect. They have actually 
saved 18,000 people out of their territorial waters this year, which is 
quite a lot. The baseline last year was a couple of dozen. So there is 
a real effect there. It's also had an effect of deterrence to have 
boats not start from the Libyan water, because suddenly there are 
Libyan Coast Guard boats out in the waters. People will not start when 
they see the boats, so there has been some positive success here.
    In terms of the monitoring, of course that's a key question. It's a 
task that for EUNAVFOR MED Sophia was not initially in its mandate. It 
has been added to the mandate to see if the Libyan Coast Guard complies 
with international norms, and how it goes actually when its operating 
on the waters. I should say, and Catherine had said it before, within 
the training there's a clear module on international human rights and 
how to treat people. We're actually very pleased that we're partnering 
with IUM and UNHCR. We're doing those modules inside the EU, under the 
EU framework for those crews.
    But the monitoring is key. We have, unfortunately, seen some 
instances where the Libyan Coast Guard has not exactly behaved up to 
the standards that we trained them. So it is key to do that. There are 
some practical hindrances. Our mission officials cannot stay 
permanently in Tripoli in the ops room. We're not allowed to do that 
for security reasons. So that's sort of day visits to see and monitor 
these things. Out at sea, the EUNAVFOR MED Sophia cannot be and cannot 
operate in the territorial waters of Libya. Our ships and vessels have 
to stay outside the territorial waters, and have to monitor from afar. 
That is also creating some kind of limitation.
    We're trying to sort of compensate for that for the last force 
generation conference; for instance, we specifically asked member 
states to provide some air surveillance tools, UAVs, basically, to be 
able to sort of do some monitoring from the air. That has been granted. 
So we're looking to really closely follow up to make sure that 
whatever's happening out on sea with the Libyan Coast Guard is really 
applying to the standards we would hope and hold them to. That was the 
third question, I believe.
    The last question was what happens to smugglers. It's very similar 
to what the colleagues explained. The officers on board will do a first 
screening of all the people and all the individuals that they pick up 
from the waters. Usually, as was said before, not so difficult to point 
out who the smuggler is, if there's a smuggler on board. Oftentimes, 
nowadays, actually there's no smuggler on board anymore because the 
ships are just set out at sea sort of free to be picked up by 
international vessels, NGOs, merchants, or naval forces, or coast guard 
forces. Oftentimes those who have been smuggled actually will point out 
to the crews who the people arranging things are.
    If people have been violent or involved in human trafficking, 
they're oftentimes on shore, not on the boat, of course. That is also 
recorded on all those records I passed onto the Italian authorities, 
who will then prosecute and go further. Actually that works very fine. 
I should also point out that EUNAVFOR MED Sophia is part of a sort of 
partnership framework in which it operates. This community, again, that 
details with international criminal organizations, Europol, Interpol, 
ICC, so that there's a full sort of picture and awareness throughout 
Europe of what's happening out there.
    Mr. Hurd. Thank you.
    Ambassador Thompson.
    Amb. Thompson. Thank you.
    First of all, let me start by saying that I am certainly not an 
expert on SAR operations. [Laughs.] But I would say, as long as people 
continue dying in the Mediterranean, more resources are needed. I don't 
know if all of the colleagues here represented--and I certainly said 
that there are a lot of heroes in this process. But certainly, for me, 
as long as there are still an important number of debt, there are more 
resources and more training that is required. So I would say that they 
are adequately resourced and trained.
    I think it's a very complex operation. I have been on one of those 
vessels. It's certainly a very complex operation, that requires not 
only the right equipment--and the colleagues before we talking about 
equipment--but also the capacity of the people, the capacity of the 
people to really assist the ones that they rescue, to identify needs 
that very often are extremely urgent to address, and then to be able to 
screen those--the people, not only the smugglers, and try to identify 
them, but also the different vulnerabilities of the people that are 
there.
    So I think we will continue to provide training, as much as 
possible. We will continue to work with the EU, the member states, in 
order to try to enhance that. I think as long as we--as I said before, 
as long as we don't address the causes and we continue addressing the 
consequences, the resources will never be enough, because we will 
continue to have people crossing all the time, and in difficult 
conditions.
    With regard to the Italian code of conduct, I really am not, as I 
said, an expert on this. We have seen the impact that it has had, that 
there are still NGOs that have continued to actively participate and do 
SAR operations. I understand--on a more personal basis, I understand 
the logic of needing to put some logic into--some standards in the way 
that NGOs work. But certainly, we think that whatever comes to 
diminishing the capacity or the possibility of having more actors 
playing, as long as people continue dying, it's impossible--it's 
important to look at and see whether those can be diminished as--the 
conditions can be diminished, keeping in mind that there has to be some 
standards that have to be applied, and that NGOs have to ensure that 
those standards are applied.
    With regard to Libya, I think--yes, I agree with the colleague from 
the European Union that the progress is substantive. Indeed, there was 
nothing before. When we're talking about the equipment, we're talking 
about the boats, the ships. So not only that, but everything else that 
you require within the boat in order to do these rescue operations. But 
mainly, I think is the shift in the logic of a more humanitarian type 
of approach, rather than a police approach. We have been working in 
doing that. We have trained a lot of people.
    I will insist that, regardless of whether we manage to create 
perfect rescue operations in Libya, and a coast guard that is fully 
equipped and capable of addressing all the issues, as long as we don't 
address what is going to happen disembarkation we continue to have--to 
create, I would say, a vicious cycle of potential vulnerabilities and 
exploitation of people. So we cannot have this contradiction of 
rescuing people at sea and bringing them into the detention centers 
where they are going to be in terrible conditions, and they might have 
even more important risks.
    So I think that continues to be an important--and we are working 
also on that, with the support of the European Union. We are working in 
trying to address the situation of the people in the detention centers. 
We are working in trying to raise awareness of the Libyan authorities 
on the possibilities to have alternative ways to detention that can 
give also protection to the people. We are working on creating standard 
operating procedures for the Libyan authorities when the people are 
disembarked, on how to screen the people, how to address those. But 
still, is work in progress. We need to do much more.
    With regard to your final question, that's probably one of the most 
difficult questions--how to improve response to human trafficking and 
the smuggling. I would say, first of all, we have to make a big 
difference between the two. People used to try to put them together, 
and these are two different type of activities and two different, I 
would say, crimes, and that need to be addressed in a totally different 
way. IOM has been working on preventing human trafficking for as long, 
I think, as the organization exists. We have made--us, and a lot of 
other international organizations, national organizations, governments, 
a big effort, particularly I would say in the last 15, 20 years. We 
have made a lot of progress. I'm talking about human trafficking.
    We have made a lot of progress in creating laws almost everywhere 
in the world that punish human trafficking as a crime, that look at the 
victim in a different way, that create some protection possibilities 
for the victims. We have built the capacity of thousands of officials, 
of judges, of prosecutors, of NGOs, of everybody. We have worked with 
everybody on this. We have not managed to stop the crime. I think a 
very important element that we have started to address in the last 
years, and it's relatively new, is actually the demand.
    This is why human trafficking happens, and what it is for. Is it 
labor trafficking? It is it for sexual exploitation? What we need to 
try to address more and more is the demand of these services and goods 
that are provided or produced by the victims. We have started in the 
last two or three years to work very much with the private sector on 
that, and to raise awareness of the people of all of us, as consumers, 
of what is important, to raise awareness, to look at the products that 
you're buying and seeing what the supply chain that those products are, 
in order to be assured that not in the main company but in the supply 
chain of the company that there are not trafficked people working on 
that. So I think it's a shift in the logic that can bring a little bit 
more results, because honestly up to now we haven't been very 
successful.
    With regards to smuggling, it's a different, and also very 
difficult, type of response. It's true that as long as there are--and 
we continue to see on this--that as long as there are jobs that are 
available in the regular and the black market, and people that are 
willing to take the risk to move in irregular ways to countries and 
suffer all the potential exploitation and abuses and the dangers that 
it implies, because they are desperate in their home countries, because 
they don't have any other possibilities, we will continue to have 
smugglers, and we will continue to have people that are willing to pay 
others to help them cross.
    The reality is that if we don't open regular channels of migration, 
we will continue to have this. Obviously, situations like the one we 
have today that are mixed migration flows--refugees, asylum-seekers, 
people looking for reunification of their families, migrant workers--
and the crisis that exists around the Mediterranean region, the Sahel 
situation--all these make a lot of potential clients available there. 
We will not be able to limit the number of smugglers and the potential 
people using smugglers if we don't address root causes.
    Mr. Hurd. Director Murray.
    It's frozen--John, can you hear me?
    While we're sorting that out, are there any questions from members 
of the audience? Yes, if you could please come to the microphone and if 
you could identify yourself and if you have an affiliation if you could 
identify that as well, please.
    Questioner. Yes, hi. Thanks a lot for this panel. My name is Izza 
Leghtas. I work at Refugees International as a senior advocate on 
Europe.
    This is an issue that I've worked on lots, so I have a couple of 
questions. First of all, regarding search and rescue, members of the 
panel have repeated many times how important and crucial this is. My 
question is why, then, isn't proactive search and rescue a part of the 
mandate of EUNAVFOR MED. This is something that we've recommended, 
obviously. There are search-and-rescue activities that happen by 
EUNAVFOR MED in the Mediterranean, but this happens while there's a 
border control operation or fighting smuggling. So why hasn't that sort 
of been put in place, given that actually the rate of deaths has gone 
up, right? Because the number of arrivals has gone up over the past 
year compared to last year.
    My second question--Mrs. Thompson, you alluded to this--is the 
question about what happens after people who are being brought to 
Libya. Basically, the support that the EU and the Italian Government 
have been providing to the Libyan Coast Guard has led indeed to an 
increase in the number of people who were brought back to Libyan 
territory. But has it been well documented by us and by others the 
horrendous conditions happening in official detention centers run by 
the Department of Combatting Irregular Migration under the authority of 
the government of national unity. So what is the EU and the Italian 
Government doing as part of sort of responsibility and due diligence to 
make sure that the abuses--that people who are basically returned as a 
result of this cooperation and support are no longer exposed to abuses 
of torture, rape, executions, forced labor that occur and have been 
well documented in these centers?
    Thank you.
    Mr. Hurd. Before you answer those questions, Director Murray, can 
you hear me now?
    Mr. Murray. Yes, and apologies for this. It keeps dropping out, 
therefore the question I heard but perhaps if I missed something could 
you please remind me.
    Mr. Hurd. Did you hear the questions that I asked you as I was 
doing my round of questions?
    Mr. Murray. I heard some of them and then it dropped out in the 
middle. So if I give you some answers and perhaps repeat the question.
    Mr. Hurd. Sure, great.
    Mr. Murray. I think to put the questions in order, perhaps, the 
equipment onboard ships is generic in that all ships are required to 
have a capacity to rescue in the water. IMO doesn't specify how many 
people. When the regulation was developed, it was intended to mean that 
if a ship came across another ship, for example, that had difficulty, 
or people were in the water from another ship, it would have some 
recognized capability of rescuing those people. That is often using 
existing ship's equipment, and only if there's nothing onboard the ship 
that could be reasonably used have some specific equipment.
    But the average ship is certainly not designed to recover large 
numbers of people, which although this equipment that I allude to, 
there's a requirement to train with it. A typical ship's crew can range 
from below 20 to quite a significant number more than that. But 20-odd 
people would not be representative of many ships. The average rescue of 
survivors onto merchant ships number over a hundred people. Don't 
forget, when the ship has rescued people onboard, it's still got to 
function as a ship. So those 20-odd people are doing their normal 
work--i.e., keeping the ship safe--and that has to be the primary job, 
navigating and all the other activities onboard, and then trying--[off 
mic]--the people who have been rescued, plus the physically difficult 
effort of actually rescuing people.
    So then I think the question was, what about the people who might 
be troublesome onboard the ship? Well, in the guidelines that I made 
reference to, Section 6 of that deals with the management of rescued 
persons, and the guidance with segregating people so far as possible 
without categorizing them beyond the basic means.
    But other people have said it's fairly obvious who's who. Ships 
can't write lists of who people are and what their backgrounds are. 
But, so far as the ship can, it can keep family groups together, it can 
keep vulnerable people to the best of their abilities, and provide 
food, water, accommodation, shelter to the people who are most in need 
of shelter. But all of that is current with the safety of the ship, 
which is the master's primary duty.
    The communications systems that we have, there are long-established 
methods which work very well with the majority of ship--[off mic]--the 
Italian, RCC, MRCC, but also Greek and other ones as well. That's the 
communication that we have in place--[off mic]--and it operates very 
well. Although, with Operation Sophia, there are proposals to further 
develop the communication protocols--we're losing it again. It'll come 
back again in a moment, or reestablish contact.
    Can you hear me?
    Mr. Hurd. We can.
    Mr. Murray. It didn't take too long that time.
    So the positive of Operation Sophia would be that there be a 
voluntary reporting area in the Mediterranean that ships would provide 
some information, which is very similar to information that is put into 
the automatic reporting system, that it would help to verify the ship 
with the Operation Sophia resources. Then a ship might be asked 
specific information which would help the authorities to--[off mic]--
that, although we have some questions. Because there's a limit to what 
the ship might reasonably be asked to do.
    One of the questions that you had was that some ships are reported 
not to respond to distress calls, and I have heard of a small number of 
reports of that. I don't know that it's been quantified, but it's one 
of those things of trying to prove a negative. It's not--the 
information doesn't really reach us about that. Clearly, as I've said, 
there is a strong tradition in the shipping industry of giving 
assistance, and it would be regrettable--[off mic]--very good reasons 
for--[off mic]--and ships were systematically and indeed the law.
    Having said that--[off mic]--UNCLOS recognize that there are 
reasons why a ship might not render assistance in that if--I mean, I'm 
paraphrasing the regulations exactly--in effect, if it's unreasonable 
or not actually possible for the ship for whatever reason to render 
assistance, then it should identify that and why the reason is. But if 
a ship doesn't participate and the details of the ship are known then 
the flag state the ship is registered with should be informed of that, 
and that lack of cooperation, lack of support should be then 
investigated.
    What we are doing to follow up and try to--because I think behind a 
lot of your questions was how could things work better in the future. 
Well, having recently returned from the last SHADE MED meeting in Rome, 
one of the things that we are investigating is to run a workshop with 
various participants in that SHADE MED process which would maintain the 
momentum of the SHADE MED meetings with developing networks of people. 
We've already heard about the anti-crime agencies--Interpol, et 
cetera--and there are marine versions of those--less formal, but 
Maritime Anti-Corruption Network--so there are other groups who we feel 
could benefit from liaison where they seek to work with the SHADE MED 
organizers in a meeting hopefully the first part of next year.
    One other thing--we've talked about different reporting systems and 
mechanisms, and it is very important for shipping we fully understand 
the different jurisdictions that exist between the EU, NATO, and 
various individual countries. For shipping to contribute effectively 
and efficiently, there's a much-used phrase that is a ``one-stop 
shop.'' But it really is important, and that's where the value of the 
RCC/MRCC comes in and--[off mic]. But a ship going about its business, 
say, engaged, has to participate in distress-related work, has a single 
point of impact rather than being expected to know and to understand 
the differences between different people's jurisdictions, arbitrary 
lines in the water, et cetera. So the ability to talk to a single point 
of contact that may well then lead onto other contacts is important.
    I have slightly made a mistake there. When I said about other 
activities, one of the things we're very keen on is to avoid the 
suggestion of financial compensation for the reasons that I've said. 
But one of the things that does cause difficulty is when ships have--on 
a small number of occasions, have been asked to stand by and report on 
a developing situation rather than actually engaging a distress or a 
rescue. So a ship should engage in a SAR activity, but should not be 
asked to become an extended arm of one of the various agencies that's 
involved. So standing by, reporting on a developing situation is not 
something that should be asked of a merchant ship.
    And I apologize if I missed other questions, but I think they were 
during the time that it dropped out. Either that, or my wonderful 
memory has--[off mic]--and I missed a question. So, if I have missed a 
question, please, ask again.
    Mr. Hurd. Will do. Thank you.
    If you could answer the question from the audience, please.
    Mr. Blaurock. Sure. Thank you very much for your questions.
    Towards your first question about the mandate of Operation Sophia, 
first of all, it is true that the FRONTEX-facilitated and -supported 
missions have search and rescue as part--explicitly as their mandate 
because those are Coast Guard operations. For Operation Sophia, we have 
to recall it's a military mission, so search and rescue is not sort of 
part of their typical set of operations. It was consciously decided 
that their main task was to sort of build a situational awareness 
picture of the business model of smuggling and human trafficking, and 
then to try to disrupt that model and go at it that way.
    I believe part of why that was the case is, first of all, because 
that's sort of the approach of--like, an active approach to take. De 
facto it also, of course, means that you track very closely where the 
different routes are, where sort of boats are taking off from, and you 
recall that and so you're following that. So de facto you're actually 
doing pretty much the same thing, but it's sort of a fine line to 
tread.
    There's also an element of not wanting to be a pull factor out 
there. If it's known that you're part of an active mission to seek out 
sort of boats in the Mediterranean, you have the chances that that will 
sort of be counterbalanced by another part.
    Also, you have to recall that Operation Sophia has an operational 
plan that you're probably aware. We're currently in the phase two alpha 
still, which, according to our plan, is operating within territorial 
waters, not within territorial waters of Libya. So the Operation Sophia 
can only stay in international waters, and only upon concrete incidents 
of safety of lives at sea can they enter Libyan territorial waters at 
all. So there's a practical and legal limit to what they could do, 
because it's actually inside Libyan territorial waters that most deaths 
occur, because that's sort of the most dangerous piece of it.
    Finally, another partner to recall, Operation Sophia is of course 
part of the international effort to save lives at sea. In part of that 
effort, they are coordinated by the Italian-run Maritime Rescue and 
Coordination Center, which are the ones who have taken over the 
responsibility for that piece of Mediterranean that should be taken 
care of by Libya, which they can't do because of lack of capabilities. 
So they're part of that effort.
    Then, part of their situational awareness picture that they're 
building, they're in constant contact with that center, and they will 
allow that center to coordinate what ship and what vessel is best 
placed to do an individual rescue operation. That's a more effective 
and efficient method of doing things, we believe at least, than asking 
for active SAR operations, as you suggested.
    As to the second question, the situation in Libya on the shore--and 
Laura has repeatedly reminded us how dire that is, and how important it 
is and crucial it is to address it--I believe the European Union member 
states are trying to do that, and with a renewed urgency now to do so, 
and that's really twofold.
    One part of it is really to try to ease the situation and better 
the situation inside the camps for those people. There's a line of 
effort, I believe about 90 million, that the European Union is putting 
towards that aim, mainly channeling through IOM and UNHCR, to better 
the living conditions and practical conditions of people in the--
[inaudible]. There's a political discourse also with the Libyan 
Government to decriminalize illegal migration, because you have to 
remember that illegal migration in Libya is a crime. So, of course, 
when you pick up people, what is done? They are put in detention. 
Trying to find alternatives to that is another important, more 
political side of the discussion.
    Then there's also the question about easing the burden to the 
Libyan state. That has to do with finding those people in most need, 
who are in the most dire situation in those camps, and try to 
repatriate them to their countries of origin. That's a decision that's 
been taken, if you followed it closely, at the African Union-European 
Union summit at the end of the month of last month, 29th and 30th of 
November in Abidjan. They created for the first time an African Union-
European Union-U.N. joint task force to facilitate and really speed up 
assisted voluntary returns out of Libya, with a target, I believe, of 
15,000 people by next February. It's a steep target. It's an ambitious 
one, but it also speaks to the necessity and urgency of the cause.
    Mr. Hurd. Ambassador Thompson, I believe there were several 
questions for you.
    Amb. Thompson. Yes, well, I will repeat a lot of what Ludwig said 
already, so I don't want to do that.
    I think the third element besides alternatives to the tension and 
bettering the conditions on the tension is really to build the capacity 
of the Libyan authorities, to understand that there are specific 
vulnerabilities and needs that people have, and that they have to be 
able to not only identify them but address them. I would say is its 
working purpose.
    A lot of the problems that I think we have in Libya is to try to 
convince authorities that we also care about them, OK? It's not only 
about migrants that are crossing the country. So with the support of 
the European Union, we are putting a lot of effort also to do community 
stabilization programs, particularly in the areas where the migrant 
flows in the south of the country, in order to really--because the 
Libyans have also big problems. They have a large number of displaced 
people, some of which are going to the places or have gone to the 
places where the migrants enter, others that have left from that. So 
there is a mix of needs that need to be addressed, and we have also to 
show to the Libyans that we also support them and we support their 
needs and bring the different government and the different militias 
into this. So it's also a political work.
    I think the other part that we are also trying to do more and more 
is to try to prevent people arriving to Libya. Part of this is not only 
the work that we are doing in Niger and in Agadez, but also in other 
regions that we are trying to replicate a little bit the success 
stories that we have had in Niger, trying to prevent people, 
particularly those that we see that they are going there in order to 
cross the Mediterranean, trying to inform people better and prevent 
them from doing already the risky trip from Niger to the north of 
Libya. At the end of the day, what we need is to again try to convince 
people that the risks that they face are much bigger than the 
opportunities that they have. I think that that's a very important 
message.
    To conclude, I would say the providing assisted voluntary return 
for those that want to return is extremely important. We have done it 
up to a certain level now, and now there is a bigger commitment also 
from African-origin countries to do that because of the terrible news 
that has been distributed everywhere. I think we really need to take 
action, all of us. It's a common responsibility and a shared 
responsibility. Countries of origin I think have come to the conclusion 
that they also need to play a role in all this.
    Mr. Blaurock. If I just might add and underline this last part. I 
mean, I spoke about the comprehensive integrated approach we're trying 
to do with transit countries, origin countries, but I think one of the 
most hopeful news that we've seen out of the African Union-European 
Union summit was just what you said here. The African Union as an 
institution and countries of origin for the first time have really 
stepped up and recognized their responsibility and their role and their 
ownership of that issue as well, and not sort of asked us to do these 
things but really actively said we'll be part of that and we'll partner 
with you in a very active manner. I think this joint task force that I 
alluded to earlier is a first concrete measure in that. Certainly, it's 
only a very first step, but it's a sea change in the mindset, I think, 
of partner countries as well. I think that is sort of at least a cause 
for hope, even though we recognize there's still a very steep and long 
challenge ahead of us.
    Mr. Hurd. On that note, I'd like to thank our panelists for a very 
rich discussion, and your endurance as well. I would also like to thank 
my colleagues Stacy, Ruben, Jordan, and others for helping to put 
together this briefing. Thank you. [Applause.]
    [Whereupon, at 4:46 p.m., the briefing ended.]
 





  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
